<html>
<title> - MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2018</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
     MILITARY CONSTRUCTION, VETERANS AFFAIRS, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2018

                              ----------                              


                          TUESDAY, MAY 2, 2017

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:34 p.m. in room SD-124, Dirksen 
Senate Office Building, Hon. Jerry Moran (chairman) presiding.
    Present: Senators Moran, Murkowski, Boozman, Schatz, 
Tester, and Murphy.

                               U.S. ARMY

STATEMENT OF GENERAL CURTIS M. SCAPARROTTI, U.S. ARMY, 
            COMMANDER, U.S. EUROPEAN COMMAND


                opening statement of senator jerry moran


    Senator Moran. The subcommittee will come to order. Good 
afternoon. We are joined today--in fact, it is an honor and 
privilege to have with us General Curtis M. Scaparrotti, who is 
the commander of the United States European Command and the 
NATO Supreme Allied Commander, Europe.
    Our Nation was founded based upon a set of complex 
relationships with European countries. The complexity of our 
relationship regarding military support was developed due in 
significant part to alliances with allied powers of World War 
II leading to the first U.S. military headquarters in Europe in 
1942 and in 1944, designating an official command structure 
with then then Major General Dwight D. Eisenhower as Supreme 
Allied Commander of Europe, a title now held by our witness 
today. We wish you were a Kansan, General.
    Looking at the last 25 years, Europe has been a continent 
in transition. From the fall of the Berlin Wall and the 
collapse of the Soviet Union to the disintegration of 
Yugoslavia, the expansion of NATO and now the resurgence of 
Russia with its aggressive global power interests, European 
Command has had to adapt to a new reality of instability and 
uncertainty, forcing us to examine our partnerships and 
relationships with the 51 countries within the Command's area 
of responsibility.
    The new reality must also take into account that despite 
the recent rise in turmoil and tension, we have reduced our 
footprint in Europe over the last 30 years. In 1989, the Army 
had 213,000 troops stationed at 858 sites in Europe. Today, the 
Army has 26,000 troops in about 80 sites.
    Two years ago, DOD announced the results of its European 
infrastructure consolidation. Its study resulting in the 
closure and divestiture of more than 15 sites throughout the 
continent and a decrease of 2,000 U.S. personnel, both military 
and civilian. Ironically, the result of--as the results of this 
consolidation study were released about 11 months later after 
``little green men'' who bore a close resemblance to Russian 
soldiers began appearing in Crimea. This prompted the European 
Reassurance Initiative, a plan to bring more U.S. troops back 
to Europe.
    At first, ERI (European Reassurance Initiative) was 
supposed to be a one-time, $1 billion response to Russian 
activities in Crimea and Ukraine. Last year, the ERI request 
more than quadrupled to more than a total of $3.4 billion. This 
is clearly now an enduring mission focused upon reassuring our 
allies as well as deterring further Russian aggression.
    For example, I learned recently that the Army Brigade 
Combat Team rotation is increasing and I learned that the Big 
Red One soldiers from Fort Riley, Kansas are deploying this 
fall in support of Operation Atlantic Resolve. Committing more 
U.S. troops will come at a price and military construction will 
play an important role in optimizing our presence and readiness 
in Central and Eastern Europe.
    This committee anticipates the Fiscal Year 2018 budget will 
include increased funding for ERI, including a significant 
increase in military construction funding. As such, it is 
important for the committee to better understand the progress 
made thus far in ERI and the geopolitical climate in which we 
are operating. The risks and challenges that are prevalent 
throughout the European Command area of responsibility from 
Russia positioning in the High North to violent extremists and 
transnational vulnerabilities in the south. If we return to the 
historic posture in Europe, how do we make certain our armed 
forces are sufficiently protected, that they do not become 
targets for terrorists?
    Though our attention has been drawn to the east, 
particularly with the North Korean missile launches as recently 
as a few days ago, we must be ready to face what many describe 
as our nation's greatest threat--Russia.
    General Scaparrotti, your testimony today is timely and we 
welcome you to our subcommittee. Today's hearing is an 
opportunity to examine your planning, priorities, and 
investments with people and with infrastructure that you 
foresee today and in the years to come in Europe.
    Senator Moran. I recognize my friend and colleague from 
Hawaii, the Ranking Member, for his opening remarks.


               opening statement of senator brian schatz


    Senator Schatz. Thank you, Mr. Chairman. I appreciate your 
holding this hearing to discuss the U.S. European Command and 
the European Reassurance Initiative for which this subcommittee 
appropriates military construction funding. I want to thank 
General Scaparrotti and I look forward to your testimony.
    Mr. Chairman, I thank you for holding this hearing at an 
important time in EUCOM's history. And I am glad to see that we 
will have the chance to discuss EUCOM's theater and the ERI 
military construction funding in an open and in a classified 
context.
    The political and military environment in Europe has 
changed massively over the last several years. Prior to 
Russia's invasion of Ukraine in 2014, EUCOM had experienced an 
extended period of peace time, prompting the U.S. to draw down 
its permanently stationed forces from around 300,000 during the 
Cold War to the current level of about 62,000. In Warsaw in 
June 2014 in response to the Russian invasion of Ukraine, 
President Obama announced ERI to reassure NATO allies and 
partners of America's commitment to European security and 
territorial integrity. ERI funding supports Operation Atlantic 
Resolve, which ensures EUCOM has a persistent rotational 
presence in Central and Eastern Europe.
    As the situation in Eastern Europe evolved over the past 
several years, the nature of the mission has changed as well. 
From an initial goal of stabilizing the crisis, reassuring 
allies and building capacity, ERI is now shifting to emphasize 
deterrents. To support ERI, the committee has appropriated $288 
million for major MILCON projects since 2015 and an additional 
$224 million for minor MILCON funded through defense O&M. These 
numbers are substantial, and while EUCOM's mission is critical, 
so too is transparency in numbers and a planning process that 
ensures that taxpayer dollars are spent in a manner that best 
supports the strategy.
    And so, it is with this in mind that the scale of our 
MILCON investments should send a clear signal to allies and 
adversaries alike that the U.S. has an enduring commitment to 
the stability and defense of Europe. We must likewise make a 
commitment to our military forces serving in Eastern Europe to 
support basic quality of life projects and force protection 
projects as we have done elsewhere in the world.
    Thank you to General Scaparrotti and thank you, Chairman, 
for holding this important hearing.
    Senator Moran. Thank you, Senator Schatz.
    I just want to take a moment to recognize the 17 
individuals that are with us this afternoon at our hearing. We 
are joined by 17 multinational students from the Army War 
College. They are here as part of the Carlisle Scholars 
Program. And I want to take a moment to thank them for their 
service and to welcome them to our hearing. You all might 
stand. Thank you all very much.
    General Scaparrotti, we now draw attention to you and we 
welcome your testimony.


                         summary statement of 
                general curtis m. scaparrotti, u.s. army


    General Scaparrotti. Chairman Moran, Ranking Member Schatz, 
and distinguished members of the committee, I am honored to 
testify today as the Commander of the United States European 
Command. I would like to thank the committee for passing the 
fiscal year 2017 MILCON bill last September, providing EUCOM 
with stable, predictable, and on-time funding. The projects go 
a long way to support posture in EUCOM to meet our operational 
requirements.
    On behalf of over 60,000 permanently assigned service 
members, as well as civilians, contractors, and their families 
who serve and represent our nation in Europe, we appreciate 
your support.
    The European theater remains critical to our national 
interests. The NATO alliance gives us a unique advantage over 
our adversaries, a united capable war fighting alliance 
resolved in its purpose and strengthened by shared values that 
have been forged in battle. EUCOM's relationship with NATO and 
with our European partners provides the United States with a 
network of willing nations who support global operations and 
secure the international rules based order.
    Our security architecture protects almost one billion 
people and safeguards transatlantic trade which now constitutes 
almost half the world's GDP. However, this security 
architecture is being tested and today we face the most dynamic 
European strategic environment in recent history. Political 
volatility and economic uncertainty are compounded by threats 
to our security system that are transregional, multidomain, and 
multifunctional.
    In the east, a resurgent Russia has turned from partner to 
antagonist as it seeks to undermine the western led 
international order and reassert itself as a global power. 
Countries along Russia's periphery including Ukraine and 
Georgia struggle against Moscow's moliant activities and 
military actions. In the southeast, strategic drivers of 
instability converge on key allies, especially Turkey, which 
has to simultaneously manage Russia terrorist and refugee 
flows.
    In the south, violent extremists and transnational criminal 
elements spawn terror and corruption from North Africa to the 
Middle East while refugees flee to Europe in search of security 
and opportunity. And in the High North, Russia is reasserting 
its military presence and positioning itself for strategic 
advantage in the Arctic.
    In response to these challenges, EUCOM has shifted its 
focus from security cooperation and engagement to deterrence 
and defense. Accordingly, we are adjusting our plans, our 
posture, our readiness so that we remain relevant to the 
threats we face. In short, we are returning to our historic 
role as a warfighting command.
    EUCOM's transition would not be possible without 
Congressional appropriations and support of the European 
Reassurance Initiative. Over the past 12 months, EUCOM has made 
clear progress with an enhanced forward presence, complex 
exercises and training, increased prepositioning of equipment 
and supplies, and partner capacity building throughout Europe. 
EUCOM's military construction program continues to build on the 
ongoing posture initiatives, infrastructure recapitalization, 
and the expansion of operational infrastructure.
    Thanks to Congressional support, EUCOM has proceeded with 
the recapitalization of the Landstuhl Regional Medical Center 
replacement project and the Joint Intelligence Analysis Center 
which I continue to believe is operationally imperative that 
EUCOM, AFRICOM, and NFIC--that's the NATO facility--those 
intelligence organizations remain collocated and that this 
project move forward as planned.
    With your continued support, I remain confident that our 
ability to affect this return to warfighting focus--I remain 
confident our ability to affect this return to a warfighting 
focus, but there is much work to do. Our force posture needs to 
increase to provide credible deterrence to Russian aggression 
and we must have infrastructure to support this increased 
posture. Significant investments are needed to provide capacity 
for operations, exercises, training, reception, staging, and 
prepositioned assets.
    The funds provided through ERI have jumpstarted 
infrastructure construction, but we must continue to invest in 
projects required to provide a ready and capable force 
presence. Accordingly, EUCOM is working with the services in 
the Office of Secretary of Defense to prepare budget 
submissions for fiscal year 18.
    Let me conclude by again thanking this committee's members 
and the staff for their continued appropriations in support of 
EUCOM. Your support, that of other senior leaders, and above 
all the support of our public at home and across Europe, are 
vital to ensuring that we have a ready and relevant force. This 
remains a pivotal time for EUCOM as we transition to meet the 
demands of a dynamic security environment. And I remain 
confident that through the strength of our alliances and 
partnerships and with the professionalism of our service 
members we will adapt and ensure that Europe remains whole, 
free, and at peace.
    Chairman, thank you and I look forward to your questions.
    [The statement follows:]
     Prepared Statement of General Curtis M. Scaparrotti, U.S. Army
                            i. introduction
    Mr. Chairman and distinguished members of this Committee, I am 
honored to testify before you in my first year as the Commander of 
United States European Command (EUCOM). It is a privilege to lead the 
great Soldiers, Sailors, Airmen, Marines, Coast Guardsmen, and 
civilians in this Command. They continue to demonstrate remarkable 
commitment, dedication, and selfless service both in Europe and across 
the globe. We all appreciate your continued support.
    The European theater remains critical to our national interests. 
The transatlantic alliance gives us an unmatched advantage over our 
adversaries--a united, capable, warfighting alliance resolved in its 
purpose and strengthened by shared values that have been forged in 
battle. EUCOM's relationship with NATO and the 51 countries within our 
Area of Responsibility (AOR) provides the United States with a network 
of willing partners who support global operations and secure the 
international rules-based order that our nations have defended together 
since World War II. Our security architecture protects more than 1 
billion people and has safeguarded transatlantic trade, which now 
constitutes almost half of the world's combined GDP.
    Nevertheless, today we face the most dynamic European security 
environment in history. Political volatility and economic uncertainty 
are compounded by threats to our security system that are trans-
regional, multi-domain, and multi-functional. In the East, a resurgent 
Russia has turned from partner to antagonist. Countries along Russia's 
periphery, especially Ukraine and Georgia, are under threat from 
Moscow's malign influence and military aggression.In the Southeast, 
strategic drivers of instability converge on key allies, especially 
Turkey, which has to simultaneously manage Russia, terrorists, and 
refugee flows. In the South, violent extremists and transnational 
criminal elements spawn terror and corruption from North Africa to the 
Middle East, while refugees and migrants fleeing persecution to Europe 
in search of security and opportunity. In the High North, Russia is 
reasserting its military prowess and positioning itself for strategic 
advantage in the Arctic.
    EUCOM fully recognizes the dynamic nature of this security 
environment, and in response, we are regenerating our abilities for 
deterrence and defense while continuing our security cooperation and 
engagement mission. This requires that we return to our historical role 
as a command that is capable of executing the full-spectrum of joint 
and combined operations in a contested environment. Accordingly, we are 
adjusting our posture, plans, and readiness to respond to possible 
future conflicts.
    This shift would not be possible without congressional support of 
the European Reassurance Initiative (ERI). Thanks in large measure to 
ERI, over the last 12 months EUCOM has made demonstrable progress. U.S. 
tanks have returned to European soil. U.S. F-15s and F-22s have 
demonstrated air dominance throughout the theater. U.S. naval forces 
have sailed throughout European waters. EUCOM has operationalized its 
Joint Cyber Center. With the approval of former Secretary Carter, EUCOM 
delivered the first new operational plan for the defense of Europe in 
over 25 years.
    ERI also supports high-end exercises and training, improved 
infrastructure, and enhanced prepositioning of equipment and supplies, 
while State Department and DoD funds build partner capacity throughout 
Europe.
    EUCOM has also continued to strengthen our relationship with allies 
and partners. Our relationship with Turkey endured a coup attempt with 
minimal disruption to multiple ongoing operations. EUCOM has 
strengthened ties with Israel, one of our closest allies. Above all, 
EUCOM has supported the NATO Alliance, which remains, as Secretary 
Mattis has said, the ``bedrock'' of our transatlantic security. Overall 
EUCOM is growing stronger.
              ii. theater assessment--risks and challenges
    Over the past year I have highlighted three signature issues facing 
us in this dynamic security environment: Russia, radicals or violent 
extremists, and regional unrest--leading to refugee and migrant 
flows.At the same time, managing the political, economic, and social 
challenges posed by refugees and migrants is a consuming concern of our 
allies and partners.
Russia
    Russia's malign actions are supported by its diplomatic, 
information, economic, and military initiatives. Moscow intends to 
reemerge as a global power, and views international norms such as the 
rule of law, democracy, and human rights as components of a system 
designed to suppress it. Therefore, Russia seeks to undermine this 
international system and discredit those in the West who have created 
it. For example, Russia is taking steps to influence the internal 
politics of European countries just as it tried to do in the United 
States in an attempt to create disunity and weakness within Europe and 
undermine the transatlantic relationship. Furthermore, Russia has 
repeatedly violated international agreements and treaties that underpin 
European peace and stability, including the Treaty on Intermediate-
Range Nuclear Forces (INF) and the Treaty on Conventional Armed Forces 
in Europe (CFE), and it is undermining transparency and confidence 
building regimes such as the Vienna Document and Open Skies, which 
provides greater transparency of posture and exercises in the region
    Russia's political leadership appears to seek a resurgence through 
modernization of its military. Russia is adjusting its doctrine, 
modernizing its weapons, reorganizing the disposition of its forces, 
professionalizing its armed services, and upgrading capabilities in all 
warfighting domains. Russia desires a military force capable of 
achieving its strategic objectives and increasing its power.
    Russia's aggression in Ukraine, including occupation and attempted 
annexation of Crimea, and actions in Syria underscore its willingness 
to use military force to exert its influence in Europe and the Middle 
East. In Ukraine, Russia's willingness to foment a bloody conflict into 
its third year through the use of proxy forces in the Donbas, and 
elsewhere, is deeply troubling to our allies and partners, particularly 
Russia's closest neighbors. In Syria, Russia's military intervention 
has changed the dynamics of the conflict, bolstered the Bashar al-Assad 
regime, targeted moderate opposition elements, and compounded human 
suffering in Syria, and complicated U.S. and coalition operations 
against the Islamic State of Iraq and Syria (ISIS). Russia has used 
this chaos toestablish a permanent presence in the Middle East and 
eastern Mediterranean.
    This past year saw other significant demonstrations of Russia's 
renewed military capability, including the first ever combat deployment 
of the KUZNETSOV Task Force, nation-wide strategic exercises, joint 
air, ground, and maritime operations in Syria using new platforms and 
precision-guided munitions, and the deployment of nuclear-capable
    missiles to Kaliningrad. Russia's deployment in Ukraine and Syria 
also revealed increased proficiency in expeditionary combat and 
sustainment operations.
    Another key component of Russia's military advancement is its 
Integrated Air Defense Systems (IADS). For example, in connection with 
its deployment to support the Assad regime in Syria, Russia fielded 
advanced Anti-Access/Area Denial (A2/AD) systems that combine command 
and control and electronic warfare capabilities, and long range coastal 
defense cruise missiles with advanced air defense platforms. EUCOM 
assesses that Russia plans to meld existing and future IADS systems 
into a central command structure to control all air defense forces and 
weapons.
    In the High North, Russia continues to strengthen its military 
presence through equipment, infrastructure, training, and other 
activities. Russia is positioning itself to gain strategic advantage if 
the Northern Sea Route opens and becomes a viable shipping lane between 
Europe and Asia.
    Most concerning, however, is Moscow's substantial inventory of non-
strategic nuclear weapons in the EUCOM AOR and its troubling doctrine 
that calls on the potential use of these weapons to escalate its way 
out of a failing conflict. Russia's fielding of a conventional/nuclear 
dual-capable system that is prohibited under the INF Treaty creates a 
mismatch in escalatory options with the West. In the context of Putin's 
highly centralized decisionmaking structure, Moscow's provocative 
rhetoric and nuclear threats increase the likelihood of 
misunderstanding and miscalculation.
    In addition to recent conventional and nuclear developments, Russia 
has employed a decades-long strategy of indirect action to coerce, 
destabilize, and otherwise exercise a malign influence over other 
nations. In neighboring states, Russia continues to fuel ``protracted 
conflicts.'' In Moldova, for example, Russia has yet to follow through 
on its 1999 Istanbul summit commitments to withdraw an estimated 1,500 
troops--whose presence has no mandate--from the Moldovan breakaway 
region of Transnistria. Russia asserts that it will remove its force 
once a comprehensive settlement to the Transnistrian conflict has been 
reached.However, Russia continued to undermine the discussion of a 
comprehensive settlement to the Transnistrian conflict at the 5+2 
negotiations. Moscow continues to play a role in destabilizing the 
Nagorno-Karabakh dispute by selling arms to both parties--Armenia and 
Azerbaijan--while maintaining troops in Armenia, despite an 
international pledge to co-chair Minsk Group charged with seeking 
resolution of the conflict.
    Russia fiercely opposes one of our strongest EUCOM partners, 
Georgia, in its attempts to align with the European and transatlantic 
communities. Russia's occupation of Abkhazia and South Ossetia since 
its 2008 invasion the Georgian regions of has created lasting 
instability.
    In the Balkans, Russia exploits ethnic tensions to slow progress on 
European and transatlantic integration. In 2016, Russia overtly 
interfered in the political processes of both Bosnia-Herzegovina and 
Montenegro.
    Additional Russian activities short of war, range from 
disinformation to manipulation. Examples include Russia's outright 
denial of involvement in the lead up to Russia's occupation and 
attempted annexation in Crimea; attempts to influence elections in the 
United States, France and elsewhere; its aggressive propaganda 
campaigns targeting ethnic Russian populations among its neighbors; and 
cyber activities directed against infrastructure in the Baltic nations 
and Ukraine. In all of these ways and more, Russia is attempting to 
exert its influence, expand its power, and discredit the capability and 
relevance of the West.
Radicals
    Violent extremists, most notably ISIS, pose a serious, immediate 
threat to U.S. personnel, our allies, and our infrastructure in Europe 
and worldwide. In 2016, there were major terrorist attacks in Berlin, 
Brussels, Istanbul, Nice, Paris, and elsewhere. ISIS has made its 
intentions clear: it seeks to overthrow Western civilization and 
establish a world-wide caliphate.
    While it's footprint in Iraq and Syria shrunk in 2016, since 2014, 
ISIS has significantly expanded its operations throughout Europe and 
now leverages its network to enable and inspire attacks by European-
based extremists in their resident countries. Further, ISIS has 
exploited the migration crisis to infiltrate operatives into Europe. 
Since Turkey expanded its counter-ISIS role and advocacy for coalition 
operations in Mosul, it has experienced an increased number of 
terrorist attacks, and ISIS's leaders have called for more. We do not 
expect the threat to diminish in the near future.
    As a consequence of this threat, European nations have been forced 
to divert financial resources and military personnel to internal 
security. The impact of this reallocation is not yet fully appreciated 
and will likely persist for years. In short, violent extremism poses a 
dangerous threat to transatlantic nations and to the international 
order that we value.
Regional Volatility
    In EUCOM's AOR, Russia's indirect actions have sought to exploit 
political unrest and socioeconomic disparities. Russian aggression in 
Ukraine has led to the deaths of approximately 10,000 people since 
April 2014. Recently in eastern Ukraine, Russia controls the battle 
tempo, again ratcheting up the number of daily violations of the cease 
fire and--even more concerning--directing combined Russian-separatist 
forces to target civilian infrastructure and threaten and intimidate 
OSCE monitors in order to turn up the pressure on Ukraine. Furthermore, 
Moscow's support for so-called ``separatists'' in eastern Ukraine 
destabilizes Kyiv's political structures, particularly as Ukraine 
undertakes politically-difficult reforms to combat corruption and 
comply with IMF requirements.
    Ukraine seeks a permanent and verifiable ceasefire, the withdrawal 
of heavy weapons and Russian forces, full and unfettered access for 
OSCE monitors, and control over its internationally-recognized border 
with Russia. Russian-led separatist forces continue to commit the 
majority of ceasefire violations despite attempts by the OSCE to broker 
a lasting ceasefire along the Line of Contact.
    Turkey has long been and remains an ally of the United States. It 
now occupies a critical location at the crossroads of multiple 
strategic challenges. To its west, it implements the Montreux 
Convention, which governs transit through the Turkish Straits, and is 
committed to local solutions for Black Sea issues. To its north and 
east, Turkey maintains a complicated relationship with Russia. Ankara 
seeks to resume the level of trade with Moscow that it enjoyed prior to 
Turkey's November 2015 shoot down of a Russian fighter. Turkey has 
absorbed the largest number of refugees from Syria--almost 3 million. 
Despite these challenges, EUCOM continues to work closely withTurkey to 
enable critical basing and logistical support to the counter ISIS fight 
and supports Turkey to counter its terror threat.
    Although the flow of refugees to Europe has slowed, the refugee 
situation remains a significant challenge to our European Allies and 
partners. The strain on the social systems of European nations, 
especially along the Mediterranean Sea, diverts resources that could 
otherwise go toward military and defense spending, and finding 
solutions has tested political relationships. EU member states struggle 
to find a common, ``shared'' approach to admit and settle migrants. 
Both NATO and the EU, in conjunction with Turkish and Greek 
authorities, have committed law enforcement and military assets to this 
issue, including a maritime force in the Aegean Sea to conduct 
reconnaissance, monitoring, and surveillance.
    The Syrian civil war and the risk of spillover into neighboring 
states, including Israel, continue to threaten stability in Europe and 
the Levant. Despite assistance from the USG and the international 
community, the refugee population in Jordan and Lebanon has placed 
significant burdens on the government and local residents.
    Additionally, factional fighting in Syria has resulted in 
occasional cross-border fire into the Israeli-occupied Golan Heights. 
Israel has avoided being drawn into the conflict in Syria but has taken 
military action to deny the transfer of advanced weapons to Hezbollah.
    The Balkans' stability since the late 90's masks political and 
socio-economic fragility. Russia promotes anti-European views in this 
region by exploiting corrupt political systems, poor economic 
performance, and increased ethnic polarization. Additionally, Islamic 
radicals seek to take advantage of high unemployment rates, political 
turmoil, and socioeconomic disparities to recruit violent extremists.
    Iran's regional influence in the Levant continues to grow through 
its ongoing support to radical groups such as Lebanese Hezbollah, 
Hamas, Palestinian Islamic Jihad, and paramilitary groups involved in 
the Syrian conflict and in counter-ISIS efforts across Iraq. Iran, 
which Israel views as its greatest existential threat, continues to 
transfer advanced conventional arms to Hezbollah and is clearly 
committed to maintaining Syria as the key link of the Iran-Hezbollah 
axis, which sustains a terrorist network in Syrian-regime controlled 
territory. Furthermore, Iran has taken advantage of the Syrian crisis 
to militarily coordinate with Russia in support of Assad.
          iii. theater assessment--strengths and opportunities
    EUCOM will meet these challenges and adapt to the new security 
environment by capitalizing on our strengths and building new 
capabilities. We are developing a credible and relevant force structure 
built for deterrence and defense and leveraging a unified and adaptive 
NATO Alliance, and transitioning into a command able to address the 
strategic challenges before us.
Deter Russia
    EUCOM activities, facilitated by ERI funding, continue to be the 
primary demonstration of our deterrent capability.
    Increased Rotational Forces. ERI has directly supported an increase 
in the rotational presence of U.S. forces in Europe, a critical 
augmentation to EUCOM's assigned forces. For example, ERI funded Fort 
Stewart's 1st Armored Brigade Combat Team's deployment to Europe from 
March to September 2016. Also, ERI funded the deployment of F-22 
fighters, B-52 bombers, and additional combat and lift aircraft to 
Europe as part of the ERI Theater Security Package. Looking ahead, 
continued congressional support for ERI will sustain these rotations 
and enable additional anti- submarine warfare capabilities 
complementing maritime domain awareness assets in Iceland that are 
included in the fiscal year 2017 ERI request. Additionally, rotational 
Marine units will operate from Norway and the Black Sea region.
    Trained and Equipped Component Commands. EUCOM has also used ERI to 
fund and field Army Prepositioned Stocks (APS), providing a rapid 
mobilization capability for additional armored units in Europe. 
Separately, EUCOM advocated for and received full support for a $220 
million NATO Security Investment Program project (i.e., paid for by 
NATO common funding) that will build warehousing and maintenance 
capability for staging APS stocks in Poland. Additionally, ERI funds 
dozens of projects to upgrade flight-line and munitions-storage 
infrastructure across eight NATO nations to support not only rotational 
presence but also training events in Eastern Europe. The Navy is using 
ERI to fund capability enablers and force rotations to support EUCOM 
and NATO exercises, including Mine Countermeasure Teams and additional 
flying hours specifically to enhance EUCOM's deterrence posture.
    Persistent Presence. ERI increased funding for U.S. forces in the 
Baltics, Poland, Romania, Bulgaria, and the Mediterranean during 2016. 
In addition, ERI allowed EUCOM to continue our contribution to NATO's 
Air Policing mission by funding a continued fighter presence in theater 
with the 493rd Fighter Squadron at RAF Lakenheath in the UK.
    Complex Exercises with Allies and Partners. ERI expanded the scope 
of EUCOM's involvement in over 28 joint and multi-national maritime, 
air, amphibious, and ground exercises across 40 countries. In June 
2016, EUCOM participated in the Polish national exercise ANAKONDA, 
which involved approximately 31,000 Allied troops-- including over 
14,000 U.S. personnel--and provided a robust demonstration of Allied 
defensive capabilities, readiness, and interoperability. ERI also 
supported Navy-led BALTOPS 16, the premier maritime exercise in the 
Baltic region with over 6,100 troops from participating nations. And 
utilizing ERI resources, the Air Force took part in over 50 exercises 
and training deployments across Europe. An Acquisition and Cross- 
Servicing Agreement concluded with the EU last December enables EUCOM 
to cooperate better with EU missions in the Balkans and elsewhere.
    Russia Strategic Initiative (RSI): EUCOM leads the Department of 
Defense's Russia Strategic Initiative (RSI), which provides a framework 
for understanding the Russian threat and a forum for coordinating 
efforts and requirements. RSI allows us to maximize the deterrent value 
of our activities while avoiding inadvertent escalation. In just over a 
year, RSI has created a number of analytic products for combatant 
commanders that will enable a more efficient application of existing 
resources and planning efforts.
    Deterring Russia requires a whole of government approach, and EUCOM 
supports the strategy of approaching Russia from a position of strength 
while seeking appropriate military-to-military communication necessary 
to fulfill our defense obligations in accordance with the fiscal year 
2017 National Defense Authorization Act. Going forward, we must bring 
the information aspects of our national power more fully to bear on 
Russia, both to amplify our narrative and to draw attention to Russia's 
manipulative, coercive, and malign activities. Finally, NATO and U.S. 
nuclear forces continue to be a vital component of our deterrence. Our 
modernization efforts are crucial; we must preserve a ready, credible, 
and safe nuclear capability.
Enable the NATO Alliance
    As the United States manages multiple strategic challenges, our 
enduring strength remains NATO, the most successful alliance in 
history. NATO's leadership understands that the security environment 
has radically changed over the past few years. The Alliance has placed 
renewed emphasis on deterring further Russian aggression, countering 
transnational threats, such as violent extremist organizations, and 
projecting stability in the Middle East and North Africa, while 
fulfilling its commitments in Afghanistan.
    The Warsaw Summit last July was a significant demonstration of 
unity, cooperation, and strategic adaptation. As the member nations 
declared in NATO's Warsaw Summit Communique, ``We are united in our 
commitment to the Washington Treaty, the purposes and principles of the 
Charter of the United Nations (UN), and the vital transatlantic bond''. 
This unity is NATO's center of gravity, and the United States must 
continue to support solidarity among the Alliance nations.
    Enhanced Forward Presence (eFP). The signature outcome of the 2016 
Warsaw Summit was the decision to establish an enhanced Forward 
Presence (eFP) in the Baltics and Poland to demonstrate NATO's cohesion 
in defense of the Alliance. Canada, Germany, the United Kingdom, and 
the United States have begun deploying multinational battalion task 
forces to Latvia, Lithuania, Estonia, and Poland respectively on a 
rotational basis.Defense Cooperation Agreements (DCAs) signed in 2017 
with Estonia, Latvia, and Lithuania are facilitating the deployment of 
U.S forces to the three Baltic states. The United States serves as the 
framework nation for eFP in Poland and is working closely with the 
other framework nations and their host nations to ensure NATO's key 
deterrence and defense measures are capable and integrated.
    European Phased Adapted Approach (EPAA). EUCOM continues to 
implement the EPAA to defend European NATO populations, territory, and 
infrastructure against ballistic missile threats from threats outside 
the Euro-Atlantic region. In July 2016, the U.S.-funded Aegis Ashore 
facility in Romania became operational and transferred to NATO 
operational control. Work on the Aegis Ashore site in Poland 
(authorized and appropriated in fiscal year 2016 legislation) is 
underway and on track for completion by the end of calendar year 2018 
and operational under NATO operational control in mid-2019.
    Projecting Stability. NATO is a key contributor to ensuring 
security and projecting stability abroad. It is worth remembering that 
the first and only time the Alliance invoked the mutual defense 
provisions of its founding treaty was in response to the 9/11 attacks 
on the United States. Today, through NATO's Resolute Support Mission, 
over 12,000 troops (including over 5,000 non-U.S. personnel) provide 
training and assistance to Afghan security forces and institutions. 
NATO is committed to ensuring a stable Afghanistan that is not a safe 
haven for terrorists.
    Additionally, it is notable that all 28 NATO nations participate in 
the Counter-ISIS coalition. NATO committed AWACS surveillance aircraft 
and actively contributes to capacity building in Iraq. EUCOM actively 
supports NATO's goal of expanding its operations against this terrorist 
threat.
    Support to Washington Treaty. EUCOM provides support for key 
articles of the Washington Treaty, enabling NATO members to meet their 
collective security commitments. EUCOM conducts activities, such as 
security cooperation, to help allies meet their Article 3 commitment to 
``maintain and develop their individual and collective capacity to 
resist attack.'' We have been able to reduce allies' dependencies on 
Russian-sourced, legacy military equipment thanks to ongoing 
congressional support for critical authorities and funding that provide 
shared resources. EUCOM also actively assists the Alliance when an ally 
declares, under Article 4, that its territorial integrity, political 
independence, or security is threatened. The last time an ally invoked 
Article 4 was 2015, when Turkey sought consultation following terrorist 
attacks. Most importantly, EUCOM is the force that backs the United 
States' commitment to Article 5, which declares that an armed attack on 
one ally is an attack on all.
    NATO Spending Trends. At the Wales Summit in 2014, the allies 
pledged to reverse the trend of declining defense budgets and invest in 
the development of highly- capable and deployable forces. Today, in 
addition to the United States, four allies (Estonia, Greece, Poland, 
and the United Kingdom) meet the NATO guidelines for 2 percent of GDP, 
up from three in 2014. Allies' defense expenditures increased in 2015 
for the first time since 2009 and grew at a real rate of 3.8 percent in 
2016, with 22 member nations increasing defense spending. Allies are 
showing demonstrable progress toward their commitment to contribute 2 
percent of their GDP within a decade (by 2024).
    This is a positive trend, but allied nations must meet the 2 
percent mark with 20 percent allocated to the modernization of 
equipment and infrastructure. Critical ally and partner capability 
shortfalls remain, including strategic lift; intelligence, 
surveillance, and reconnaissance (ISR); deployable command and control; 
air to air refueling; and air and missile defense. Further, both EUCOM 
and NATO are hampered by inadequate infrastructure that affects the 
ability to maneuver across the continent. The expansion of the Alliance 
to include former Eastern Bloc countries has exacerbated the lack of 
common transportation networks between the newer NATO members in the 
east and the more established allies in the west. EUCOM is working 
closely with NATO to identify and address infrastructure requirements 
to improve U.S. and NATO freedom of movement throughout the theater.
Build Partner Capacity
    EUCOM has spent several decades working with the Department of 
State to help allied and partner nations develop and improve their 
military and other security forces. This partner capacity building has 
been accomplished with the support of this Committee, which has been 
generous in providing us the authorization we need to accomplish this 
critical task. I would highlight two activities in particular.
    Defense Institution Building (DIB). DIB helps partner nations build 
effective, transparent, and accountable defense institutions. For 
example, EUCOM fully endorses the work of the Defense Reform Advisory 
Board in Ukraine, which is helping to bring about both political and 
military reform as the Ministry of Defense, General Staff, and Armed 
Forces transition from centralized Soviet-style systems and concepts 
towards a Euro-Atlantic model. We also support defense institutions in 
Georgia, helping them improve their strategic logistics, human and 
material resource management, and institutional aspects of their 
training management system. Overall, our DIB efforts lay the groundwork 
for broader security cooperation activities.
    Joint Multinational Training Group Ukraine (JMTG-U). Together with 
forces from Lithuania, Latvia, Estonia, the UK, and Canada using State 
Department-provided Foreign Military Financing and Ukraine Security 
Assistance Initiative funds, EUCOM trains, advises, and equips Ukraine 
security forces, helping them build the capacity to defend their 
sovereignty and territorial integrity. Our team, working through the 
Multinational Joint Commission, has developed Ukraine's institutional 
training capability so that Ukraine can create a NATO-interoperable 
armed force. Our efforts include the training of both conventional and 
special operations units, as well as advising Ukraine on defense reform 
priorities.
Assist Israel
    EUCOM's mission to assist in the defense of Israel, one of our 
closest allies, remains a top priority. Success will depend on the 
continued support of Congress and our strong relationship with the 
Israel Defense Forces. Many aspects of our bilateral relationship have 
been guided by the Strategic Cooperation Initiative Program (SCIP) 
framework, which dates to the Reagan Administration. SCIP enables 
robust cooperation and coordination on a vast range of security 
matters. Going forward, we are working to update the SCIP to 
incorporate an examination of all major exercises to ensure each meets 
the three major pillars of our security relationship: (1) missile 
defense, air operations, and counter-terrorism; (2) managing the Weapon 
Reserve Stockpile for Allies-Israel (WRSA-I); and (3) ensuring Israel's 
qualitative military edge.
Counter Transnational Threats
    Adopting a whole-of-government approach, EUCOM, together with its 
interagency partners, conducts initiatives to counter transnational 
threats including countering terrorism and the flow of foreign 
fighters, countering illicit finance networks, combatting the 
trafficking of persons and illicit substances; and building allied and 
partner security, investigative, and judicial capacity. In conjunction 
with the Departments of State, Justice, Homeland Security, and other 
Federal law enforcement agencies, EUCOM works to monitor and thwart the 
flow of foreign fighters, support the dismantlement of facilitation 
networks, and build partner nation capacity to defeat violent 
extremism.
    Through our counter terrorism cell, EUCOM strengthens the global 
Counter-ISIS efforts in coordination with and support of U.S. Central 
(CENTCOM), Africa (AFRICOM), and Special Operations (SOCOM) Commands. 
We have focused on those who facilitate the ISIS brand and network 
through radicalization, financing, and propaganda.
    Also, EUCOM and NATO are working to increase ties with the EU to 
enhance the capabilities Europe can collectively bring to bear against 
transnational threats. These three organizational nodes foster a shared 
understanding of the threats, help match resources accordingly, and can 
address all elements of national power including diplomatic, 
informational, military, and economic. In order to realize this 
networked approach, EUCOM will support NATO efforts to expand the 
capability and capacity of Allied Joint Forces Command--Naples.
Enable Global Operations
    EUCOM personnel actively support operations in AFRICOM and CENTCOM 
AORs. EUCOM's well-developed and tested infrastructure provides 
critical capabilities in strategic locations such as Incirlik, Turkey; 
Sigonella, Italy' and Moron and Rota, Spain. Basing and access in 
Germany, Greece, Italy, France, Spain, Turkey, and the United Kingdom 
enable more timely and coordinated trans-regional crisis response.
                       iv. resource requirements
    Significant U.S. force reductions following the collapse of the 
Soviet Union were based on the assumption that Russia would be a 
strategic partner to the West. These reductions now limit U.S. options 
for addressing challenges in a changing European strategic environment. 
The strategic rebalance to Asia and the Pacific, combined with budget 
limitations in the Budget Control Act of 2011, have contributed to 
substantial posture reductions across our land and air domains. For 
example, between 2010 and 2013, two fighter squadrons and a two-star 
numbered air force headquarters were inactivated, along with associated 
critical enablers and staff personnel. In addition, the last two heavy 
Brigade Combat Teams (BCT), a two-star division headquarters, and a 
three-star corps headquarters were removed from Europe, leaving only 
one Stryker and one airborne brigade. As a result of the BCT losses, 
without fully-resourced heel-to-toe rotational forces the ground force 
permanently assigned to EUCOM is inadequate to meet the combatant 
command's directed mission to deter Russia from further aggression.
    Deterrence Posture. Going forward, we will need to continue 
maintaining capable forces for effective deterrence. EUCOM is 
coordinating across the DoD to obtain the forces we need in every 
warfare domain. This may include additional maneuver forces, combat air 
squadrons, anti-submarine capabilities, a carrier strike group, and 
maritime amphibious capabilities. We will continue to enhance our plans 
for pre-positioning equipment across the theater as a flexible 
deterrent measure and to exercise the joint reception, staging, and 
onward integration of CONUS-based forces into Europe.
    ERI Requirements. EUCOM's continues to require the ability to deter 
Russian aggression and counter malign influence while assuring allies 
and partners. We anticipate needing to continue deterrence measured 
initiated in previous ERI submissions to include: Army and Air Force 
prepositioning, retention of F-15 presence, improved airfield 
infrastructure improvements, and to address some new capabilities 
needed in the theater.
    Indications and Warnings (I&W). EUCOM's ability to provide 
strategic warning is critical to credible deterrence. . A robust 
intelligence capability enables accurate analysis and rapid response in 
a changing theater security environment. This capability also supports 
the design of realistic exercises, posture alignment, and future 
requirements. Furthermore, when completed, EUCOM's Joint Intelligence 
Analytic Center at Royal Air Force Croughton will provide a dedicated, 
purpose-built intelligence facility collocated with NATO and AFRICOM's 
analytic centers that will enhance capability and capacity in both 
combatant commands and NATO. Finally, additional intelligence 
collection platforms in theater, such as the U-2, the RQ-4, and the RC-
135, are required for accurate and timely threat information to support 
strategic decisions.
    Recapitalization Efforts. The European Infrastructure Consolidation 
effort announced in January 2015 enables EUCOM to divest excess 
capacity and consolidate missions and footprints at enduring locations. 
However, with aging infrastructure and little recent investment, 
recapitalization and consolidation projects are required to support 
warfighter readiness, command and control requirements, deployments, 
training, and quality of life. This Committee has been key to these 
critical efforts. We continue to modernize communications facilities 
and schools across Europe. Last year, Congress authorized the final 
increment for the Joint Intelligence Analysis Center, which enables the 
closure of RAFs Molesworth and Alconbury.
                             v. conclusion
    Let me conclude by again thanking this Committee's Members and 
staff for their continued support of EUCOM, not only through providing 
our requested funding, but also by helping us to articulate the 
challenges that lie before us. Support from other senior leaders and, 
above all, from the public at home and across Europe is vital to 
ensuring that we remain ready and relevant. This is a pivotal time for 
EUCOM as we transition to meet the demands of a dynamic security 
environment. I remain confident that through the strength of our 
Alliance and partnerships, and with the professionalism of our service 
members, we will adapt and ensure that Europe remains whole, free and 
at peace.

    Senator Moran. General, thank you. General, thank you very 
much.
    I am going to turn first to the Senator from Alaska who is 
on a schedule today that we want to be accommodating. So the 
Senator from Alaska is recognized.

                    RUSSIAN ACTIVITIES IN THE ARCTIC

    Senator Murkowski. Thank you, Mr. Chairman, and thank you 
for allowing me to kind of skip the line. And I am sorry that I 
will not be able to be part of the second half of this 
briefing, but I do appreciate the opportunity to have you 
before the committee here, General Scaparrotti, and just thank 
you for your leadership.
    You have mentioned the High North and that is an area that 
I pay close particular attention and concern to. You mentioned 
Russia positioning itself to gain strategic advantage, not only 
with the sea lanes as they are becoming open, but we are seeing 
stepped up activity. I think it is fair to say that all 
Alaskans are paying particularly close attention to Russia. It 
was just a few weeks ago that for four days in a row we were 
greeted with aircraft that were spotted off the coast of 
Alaska. And, well, that used to be a common sight. We have not 
really seen that since 2015. So people look up. They wonder 
what the scramble is all about and they really wonder what is 
going on.
    A senior Defense official was quoted as saying that this 
was ``not a concern and attributed the uptick to a recent lack 
of available Russian aircraft and the need to boost training.'' 
So I want to ask you about that, whether you agree with that 
assessment, but also want to have you speak to the specifics 
that we are seeing in Russia and this Arctic expansion.
    It was highlighted in the news this weekend. I do not know 
if you saw the Sunday night--the NBC Nightly News report on the 
80th Independent Motor Rifle Brigade. This is a Russian Arctic 
Brigade that is now stationed along the Finnish border. And, 
Mr. Chairman and Ranking Member, it might be--it is a two-
minute clip, but it is pretty substantive in terms of showing 
what the Russians are doing in their Arctic training and 
recognizing that they are training in temperatures that are 
tough. It is 40 degrees below zero.
    They are using everything from tanks to military hardware, 
snow machines, even reindeer and dog sleds. But it is not just 
the training that is going on. It is what is happening with the 
opening of some pretty impressive new bases, not just dusting 
off the Cold-War era Arctic bases. They recently unveiled a 
14,000-square foot Arctic shamrock, which is a permanent Arctic 
base along the 80th parallel, as well as having four new bases 
planned.
    So folks in Alaska are wondering what is going on. They 
hear senior defense officials say, you know, don't be too 
worried here. How do you offer the assurance to Alaskans, I 
guess, or to all Americans, about what we are seeing in Russia 
right now? What does this year's ERI do to basically keep 
Russia on its side of the border? So if you can speak to the 
activities in the High North, I would greatly appreciate it.
    General Scaparrotti. Senator, thank you. I think you 
accurately described what we see.
    Russia as it has invested in its forces over the last 5 to 
6 years, is doing so in a very broad manner, and so it affects 
their air, maritime, ground forces, their coastal defense 
forces, their radar systems for air defense, et cetera. So we 
see it across the board. And we have now seen them begin to 
make those improvements in the High North or in the Arctic as 
well.
    As you noted, the northern sea route, one of the routes 
there, is--given the warming, is the most likely it is the one 
that is open first, et cetera, and it does travel closest to 
their border. As they put in bases, they are refurbishing old 
ones. They are putting in some new ones. They are placing 
forces, as you noted. They are placing some air defense and 
missile systems in as well.
    Our concern is that rather than the Arctic being a place 
that is for commerce, stable, freedom of maneuvering in 
accordance with international laws is adhered to, that they 
could position themselves in a place to control the Arctic and 
that sea lane and so that is what we are watching very closely.
    I would tell you that the flights are a function in a sense 
of their growing capabilities, their refurbishment of their air 
force, their long-range bombers that you referred to, but they 
are also starting to demonstrate those capabilities. That is 
what they are doing. They are demonstrating their capabilities. 
They do so on the other side on the Arctic into Europe as well.
    ERI is the very basis of our response to Russian 
aggression, malign influence, and also their modernization. The 
ERI funds provide us the capability, for instance, in early 
warning systems it provides us capabilities in ISR, 
Intelligence Surveillance and Reconnaissance, specifically with 
respect to antisubmarine warfare, which is a very important 
component of their High North. Their northern fleet is in that 
area in the Arctic.
    And so all of those things go into that. When we go into 
the classified session I can go into a good deal more detail 
about what they are doing and how we can influence that, but as 
you said, I remain concerned and it is a point that I bring out 
because of our need to continue what we are doing in ERI, but 
broader than that, we also need to continue our modernization 
so that we remain dominant in the domains that provide all of 
our citizens and the Europeans reassurance that we can deter 
this threat and protect the United States.
    Senator Murkowski. Well, I appreciate that and I will look 
forward to an opportunity to perhaps visit more directly with 
you about some of these specifics. I am going to be taking a 
group of members at the end of this month to Norway, where we 
will have an opportunity to visit the Marines at the Joint 
Arctic Training there at Vaernes. And I know that we have 
various partnerships in other places with other Arctic nations 
like Canada for things like search and rescue, but do we have 
any other military partnerships or opportunities like this and 
do you see us doing more of what we are seeing right now with 
the Marines in Norway and kind of building that capacity out?
    General Scaparrotti. We have a good partnership obviously 
with Norway. We have begun to work in a more routine basis, 
particularly with our Marines now, but also with other 
services, air and naval, as well as Sweden and Finland in the 
north. And we will continue those operations with them, the 
training, the practice interoperability, et cetera.
    They have a very good understanding of Russia's posture 
because of their position and their long relationship with them 
and that is very helpful to us as well in understanding 
deterrents, understanding a proper posture, and being able to 
get that right.
    Senator Murkowski. Sir, I appreciate it, and again I look 
forward to talking with you about these and other aspects. 
Thank you.
    Senator Moran. Senator Schatz.

                  BUDGET PREDICTABILITY AND STABILITY

    Senator Schatz. Thank you, Mr. Chairman.
    General Scaparrotti, I wanted to talk to you about the need 
for predictability in the context of ERI. You are here in an 
unusual week where we are passing a big bipartisan bill. And I 
know we did the MILCON piece last year, which was great, but 
obviously, there are implications in terms of rotational forces 
and other needs that you have at EUCOM that are going to be met 
through this omnibus.
    So I wonder if you might not just briefly describe what 
this does for ERI and maybe recount the private conversation we 
had about the extent to which our friends and allies alike are 
actually watching twists and turns in the legislative process.
    General Scaparrotti. Senator, thank you.
    I just reiterate as I said in my opening that, you know, a 
predictable stable budget and funding is very important to us 
because it allows us to plan and do it efficiently. That is 
particularly important when it comes to the posture of troops 
like we are trying to reposture in Europe a bit. Long-term 
planning helps that. It helps with our modernization because we 
can actually lay out a plan for that modernization to include 
to ensure that at an end of a period of time we have a force 
that is relevant to the threats that we see.
    Finally, your note. I had noted that as the Supreme Allied 
Commander in Europe and working closely with our allies there, 
I can assure that our partners and our allies pay close 
attention to our budgeting because they understand what is year 
on year, what is done only at a year of time. And so their 
question then is are you sure that this that is funded on a 
yearly basis is in fact going to be funded over the next couple 
of years or through fruition with our plans. And so it is 
helpful in that respect to. It is an assurance to our allies 
that what we have begun, we are going to finish in terms of 
posture, exercises, facilities, et cetera.
    Senator Schatz. Can you talk to me about long-term or even 
medium range planning when it comes to both major MILCON and 
minor MILCON and without getting into what is and isn't in a 
FYDP (Future Years Defense Plan). I understand sort of that 
technical and legal discussion. I just want to hear from you 
what is our planning timeframe and how should we be thinking 
about your planning timeframe when we think about funding.
    General Scaparrotti. Well, we actually, in EUCOM we have an 
infrastructure plan that we develop as a part of the staff in 
conjunction with OSD. It looks out beyond 5 years. I think it 
is one of the basic documents. In fact, I want it to be a 
living document to the extent that when a new staff member 
comes in or another commander into the command, they should 
read that as one of the base documents so they know what our 
vision is for the posture, the footprint, and the facilities 
that we need in Europe.
    Coupled with that is a plan for posture. We have that on a 
four-year plan as to where we think we need to go with the 
appropriate force in EUCOM. Those are all tied, obviously to 
MILCON and long-term. I think it is just important that we have 
a vision that is longer term so that we can plan and budget in 
that respect and do it efficiently.
    Senator Schatz. And where does ERI sit in those various 
processes?
    General Scaparrotti. ERI today, as you know, is funded 
yearly. It is OCO. It is not in the base. And as a result of 
that, you could look shorter term if you are not careful.
    Now, what I want to assure the committee is that we looked 
at the criteria that Congress budgeted ERI for, its purpose. We 
have those categories. And then we also go through a process 
within the components in Europe against those categories over 
the FYDP. So we are not looking at just next year. We are 
looking at where we want to be at the end of the FYDP and we 
actually help cost that out. So that is helpful.
    Senator Schatz. But just to be clear, it sounds like it is 
okay on your side, but to the extent that it is not in the FY 
DP formally, it becomes a problem on our side, right?
    General Scaparrotti. Well, it would be helpful for us all 
not to----
    Senator Schatz. Right.
    General Scaparrotti [continued]. Have to come back into 
that next year with uncertainty.
    Senator Schatz. Right. And it seems to me that to the 
extent that this is about reassurance, that it would be 
reassuring for our allies to see that we are willing to do 
long-term investments that are going to get amortized over the 
period during which we are going to be engaged in ERI, which 
presumably is certainly longer than the 1 year that OCO allows 
us to do.

                   QUALITY OF LIFE IN EASTERN EUROPE

    One final question and then maybe I will take a brief 
second round. You know, when ERI was rolled out in 2014, it was 
sort of in response to an emerging situation and so the funding 
needs and the priorities were, you know, mission, runways, 
building control towers, ammo storage. We are obviously not 
into basing in those parts of Eastern Europe, but there is at 
least a more semi-permanent presence that we have to think 
about.
    And so I am wondering what is that next tier, especially as 
it relates to quality of life? Because I have heard now 
anecdotally from people who have served in ERI, from service 
members that there are quality of life constraints that make it 
one of the tougher places to serve. And obviously we have to do 
whatever is mission critical, but over time, as you know, the 
quality of life stuff is mission critical too. So I am 
wondering if you could speak to how you are working that into 
the plan.
    General Scaparrotti. Well, part of ERI is the facilities 
that we need to appropriately station particularly mechanized 
forces who are a combat aviation brigade, et cetera. So as you 
look at some of the MILCON here, it is actually improving those 
facilities.
    I would say also that particularly taking care of people, 
our allies have been quite good about their investment, not 
only in facilities to help those units, but facilities like 
barracks for our troops, the kinds of support that they might 
find in a normal base. So we are looking to them as well.
    I would say that particularly in the east with the ERI and 
the rotational forces there, I do not see a need for the kind 
of support that we typically give in one of our bases in 
Western Europe, but we are working to improve it so that our 
forces there are well taken care of, but they also can focus on 
the mission that they have at hand. And we will continue to 
work with that in mind.
    Senator Schatz. Thank you.

                     GEOPOLITICAL CLIMATE IN EUROPE

    Senator Moran. Thank you, Senator.
    General, in 2014 when this initiative regarding reassuring 
our allies in Europe came into existence, there was a certain 
climate that preexisted that caused us to think this was a 
necessary step for the United States to pursue. How would you 
describe the change in climate from that point in time to 
today?
    General Scaparrotti. Well, personally, I think that the 
recognition in Europe in particular, that Russia is intent on 
its stated goals of establishing itself as a global power, that 
it will press on the international norms, continue to press 
that after breaking international laws with respect to Ukraine, 
for instance, that it is intent that its modernization and the 
use of its military to set facts on the ground beforehand, I 
think that has become even more apparent since 2014 and we 
continue to see that drumbeat. And I think for the most part in 
Europe they understand that and they are committed to 
deterrence of Russia as well.
    It is greater, obviously, in the east where they face them 
directly than perhaps in the south or west, but the alliance 
has been strong and I think our partners are as well in this 
recognition. Warsaw made that commitment, you know, or the 
alliance did at Warsaw, and I think it was quite clear.
    Senator Moran. And what has changed in regard to Russia's 
efforts? Has there been a consequence of our reassurance 
efforts in a response from Russia in how we would have expected 
them to behave or how they are changing their behavior?
    General Scaparrotti. Well, I think if you look at their 
stated response, they recognize what we are doing. I think they 
are concerned about the changes that we have made as the United 
States in terms of the rotational forces that we have now put 
in, what NATO has done with enhanced forward presence. It has 
their attention. I think their response is one to say that they 
are deterred by that. They have recognized it. They have said 
publicly that they are making adjustments on their western 
border and in the Baltic and Black Sea as a result of that.
    So I think that is the response that I look for. I wish we 
had a crystal ball we could see clearly the cognitive impact on 
the regime in Russia, but I cannot say that clearly at this 
point.
    Senator Moran. What more needs to be done to reassure our 
allies and to deter Russian aggression? I do not know that 
there is a solid answer to this question, but I am interested 
in your thought process. How do we know we are in the position 
we need to be that our allies feel reassured and those that we 
oppose for their actions feel constrained?
    General Scaparrotti. Senator, that is really the tough 
question. I mean, we look at--we are in a deterrence posture 
now and determining how we assess the effectiveness of that 
deterrence is very difficult. Part of it is because it is a 
cognitive effect you are trying to have more so than a posture 
effect and so it is more difficult. And I can talk about it 
more in a classified, but I think that what we need to do is we 
need to stay strong with our allies. We need to ensure with our 
country and as much as we can with them that we approach this 
from a whole of government approach.
    The Russians see this as a whole of society approach. They 
do not see a differentiation between what they do in the 
military with respect to their actions. They include 
diplomatic, economic leverage, et cetera. I think our response 
has to recognize that as well. And then we need to also improve 
our posture because we need to have a strong front. That is 
what Russia respects is strength.

               RUSSIAN INTERFERENCE IN EUROPEAN ELECTIONS

    Senator Moran. When we visited in Europe with you earlier 
this year, we had been to France and Germany, both concerned 
about intrusion by Russia into their elections. Any update? Any 
sense of what is going on in that regard?
    General Scaparrotti. They both continue to be very 
concerned about it, France in particular. I think publicly you 
saw that France believes they did have some influence and 
direct influence by Russia in terms of who they preferred to 
see elected. You know, there was a relationship there as well 
in terms of, you know, what we had learned and our ability to 
help them posture themselves to protect against that. And 
Germany shares the same concerns. And there is a number of 
other elections between now and fall in Europe where, you know, 
Russia is known to have been directly involved with parties 
that they can influence or politicians as well.

               BURDEN SHARING ON INFRASTRUCTURE PROJECTS

    Senator Moran. What is the relationship between--let me do 
it this way. We are going to spend some money on 
infrastructure. This committee has been supportive of that 
effort and I assume will continue to do so. What do we pay for 
ourselves? What is NATO responsible for? What are our other 
allies responsible for?
    General Scaparrotti. Well, I think we work together on 
sorting out exactly what you do, but I think a quick way to 
look at this is we are willing to put infrastructure and some 
funding into some of their facilities, the airfields, their 
ports, their storage facilities and some of those things in 
order to help us early on with this step, but we expect them to 
put in funds to help us with that as well, as well as support 
of our troops.
    The second things is that we need to be able to move with 
some agility, both us and our European partners. And so within 
each of those countries, I would expect that they invest in 
their infrastructure, in their rail, in those fuel capacity, 
fuel stores, and those kinds of things that we need in order to 
be able to move at speed in Europe. In the Cold War, we had a 
very good laydown of that. The nations there had, you know, 
responsibilities in turn in their nations so that we could move 
through countries.
    That has deteriorated, or let us say it has declined since 
the Cold War and we are now in a process with the other nations 
of looking at what we need to do to have the right structure in 
order to provide for our agility in theater and they are taking 
that on as well.

                         MILITARY MEDICAL CARE

    Senator Moran. Let me ask one more question. Then we will 
go to Senator Schatz and we will have another round.
    Medical care and treatment for our service men and women. 
What is the status in Europe? What role does it play globally 
in our military efforts? What do you see as the future needs?
    General Scaparrotti. Well, first of all, one of our lines 
of effort in Europe is enable global operations. Because of our 
location and particularly in the medical facilities, we service 
not only EUCOM and the servicemembers there, but we often bring 
our wounded and those ill from Central Command, from AFRICOM, 
into our theater too. So Landstuhl is a critical facility, but 
it was built in the 1950s.
    And as you know, with the help of this committee, we have 
been appropriated most of the funding for the Rhine Ordinance 
Barracks Military Hospital that is being--it has already 
started construction. And we would ask you for the continued 
funding of that to complete that project in about '20, '21, or 
'22. It is critical not only to EUCOM and the health of our 
families and our soldiers, sailors, airmen, and marines there, 
but it is critical I think for our movement and our posture 
medically in other theaters also.
    Senator Moran. General, thank you.
    Senator Schatz.

             CRITICAL VACANCIES IN THE DEPARTMENT OF STATE

    Senator Schatz. Thank you, Mr. Chairman.
    I wanted to follow up on your view of the Russians taking a 
whole of government approach to exercising power and I 
specifically wanted to ask you about the extent to which we are 
using the whole of government as a country in the European 
context. We do not have an Assistant Secretary for Europe and 
European Affairs. I understand we have an acting in that 
position. Most ambassadorships are not even nominated, let 
alone confirmed.
    And without forcing you into a political conversation, I 
would just like you to speak to the utility of working with our 
State Department and other counterparts in making sure that in 
terms of alliance management and the diplomacy and politics 
that goes with your job that you have the full complement that 
you need.
    General Scaparrotti. Well, you know, I approach, as I said 
before, the importance of whole of government, I approach what 
we do in Europe from that viewpoint. I have a POLAD who is--it 
is an ambassador. She is very experienced--Ambassador Elliott. 
We treat her essentially as a deputy in order to harness the 
other agencies of government and particularly diplomacy, to 
have that coordination with our embassies and make sure it is 
very tight.
    And so, when we approach whether it is deterring Russia or 
it is countering transnational threats, all of those things 
rely on, first, good diplomacy, economic information, 
instruments of power in order to work. And I think, frankly, 
while the military provides some muscle to our diplomacy, we 
always want diplomacy to take the lead. And the intent is, is 
that we prevent war and you do not have to use the military 
instrument of power. So I think it is very important we 
continue to approach, you know, our challenges in Europe in the 
same manner.
    Senator Schatz. Is it fair to say you are looking forward 
to working with the newly confirmed diplomats as soon as they 
are nominated and confirmed?
    General Scaparrotti. That is true.
    Senator Schatz. Thank you. I wanted to ask you to sort of 
just make the best case you could for an additional BCT in 
Europe. I know that is being knocked around and I would just 
like you to make the case for it.
    General Scaparrotti. Well, you know, today I have two BCTs. 
One is an airborne infantry brigade combat team. One is a 
cavalry element 22. And the challenges that we have, Russia's 
posture is not a light force. It is a heavy force. And so in 
order to have the posture that is both credible and of the 
right composition, then we need more armored forces. I have one 
rotational brigade today. I think, frankly, I need to increase 
that over time to make sure that we do have a force of enough 
size that enables us to deter Russia and is a good posture for 
the follow-on forces should we have a crisis.
    The second thing I would mention, Senator, is that what 
comes beyond that is the enablers, things like engineers, you 
know, a fires brigade, an aviation brigade, those enablers that 
help those armored units to fight in the way that we do 
effectively.

                 EUROPEAN INFRASTRUCTURE CONSOLIDATION

    Senator Schatz. Thank you. Last question. On the European 
infrastructure consolidation, can you just give us a status 
report? I understand none of the facilities have been turned 
back, but I also am reading reports that indicate that there is 
a reconsideration at least of portions of EIC, so could you 
give us a status report, please?
    General Scaparrotti. Senator, yes. By my count, since '13 
when this began, we have got about 57 sites. And as you know, a 
site can be a very small thing or it can be somewhat large, but 
57 that we have returned to host stations. We have got 15 
remaining today that have not been turned over. The decisions 
to turn those over remain constant. That is the work. That is 
what we are moving toward.
    I understand the services are looking at a couple of those 
sites potentially to reconsider. That is a service issue. I 
would tell you personally that we in EUCOM always consider the 
environment, how it changes, and what we need to support our 
posture, so I too think there is probably a couple that might 
be worth reconsideration, but that has not been done and it is 
actually a service function for the most part.
    Senator Schatz. And that decision is at the Office of the 
Secretary?
    General Scaparrotti. I do not know that for sure. I would 
have to go--the actual decision itself. It is certainly, you 
know, above my level as Secretary or beyond.
    Senator Schatz. Thank you, Mr. Chairman.

          JOINT INTELLIGENCE ANALYSIS CENTER AT RAF CROUGHTON

    Senator Moran. General, this subcommittee has been 
supportive of the Joint Intelligence Analysis Center at RAF 
Croughton. I think that decision was made before you arrived in 
your current position. There has been some suggestion that it 
should be built at Lajes Field. Let me ask you to explain to 
us, if you believe it to be true, why Croughton is the right 
place to relocate the existing facility. I would be glad to 
hear what you have to say.
    General Scaparrotti. Well, as you said, that decision was 
made beforehand, but when I took over, I assembled our staff. I 
have been there. I visited the NFIC and our JAC that is a part 
of the JIAC and I took a look at the other available bases. And 
I think that Croughton is the right place. I think it is 
correct to have those facilities, the different facilities. 
There are six different entities there collocated.
    What we get here is we get real synergy out of EUCOM, 
AFRICOM, the NATO, the DIA support apparatus, as well as BICES, 
which is an intelligence exchange communication system. Those 
are the six kind of pieces that make a part of--that make this 
up. We get great synergy out of them being in one place.
    Number two, the challenge today is to make sure that we can 
actually exchange information at a relevant speed. And today, 
information moves very quickly, as you know. When you collocate 
those, they have an opportunity then to share intel 
appropriately and very quickly as well as analysts and discuss 
issues. This is powerful and it is particularly important 
between NATO and the U.S.
    The other thing I would mention, Senator, is that for the 
NATO Intelligence Center that supports me and Supreme 
Headquarters, Allied Power in Europe under NATO, the framework 
nation for that intelligence facility is the United States. So 
what we provide in one site as a U.S. intelligence facility, 
that support apparatus supports NATO. If it were to be 
someplace else, we will also have to have the people and the 
resources at that other place duplicated to support that 
facility because we have that commitment within NATO.
    Secondly, it is all 28 members have to agree on the 
location, et cetera, which they have done. That, within NATO, 
is an important factor here, I think. So I think for several 
reasons it is actually in a very good facility. When we talk in 
the closed session I can be in a little more detail on this, 
but I do think we have it right.
    Senator Moran. Let me just ask a little bit further. In 
your analysis, are there any circumstances, either as a matter 
of being cost effective or of military value, that the facility 
should be located at Lajes Field in Portugal?
    General Scaparrotti. No, I do not think so.
    Senator Moran. Okay.
    General Scaparrotti. Thank you.

                  MILITARY PRESENCE IN NATO COUNTRIES

    Senator Moran. The Enhanced Forward Presence units are all 
located currently in the Baltics and Poland. Do you think any 
additional units need to be stationed in the southern flank of 
NATO, in Romania or Bulgaria?
    General Scaparrotti. Senator, today I think given the 
posture that we have, we are in fairly good shape. I think I 
will look at that as time goes on here through the summer and 
end of the fall.
    So in Romania and Bulgaria on the NATO side, we have 
something similar to enhanced forward presence in the Baltics 
and it is called tailored forward presence. Romania, Bulgaria, 
and other nations that have chosen to take part in that have 
formed a multinational brigade that operates in those two 
countries, exercises together, and provides deterrents in that 
area. It extends also to our maritime forces and NATO, et 
cetera.
    Secondly, we rotate forces through there almost routinely. 
Marines, for instance, and then also we have one of the NEC 
Battalions out of our rotational armored brigade down there 
now, and we will probably be in that part. You know, we will 
probably have a unit down there out of that a good deal of the 
year. So I think with that capability, we are beginning to get 
the posture right in the southeast as well as up in the Baltics 
and Poland.

                          COMBATING TERRORISM

    Senator Moran. General, we have talked mostly about Russia. 
Tell me about terrorists and terrorism, what role and what 
stance is the United States and NATO required necessarily to 
combat terrorism?
    General Scaparrotti. Senator, I think first of all the 
idea--and you have probably heard this before--that it takes a 
network to defeat a network.
    The terrorists, ISIS and other organizations, as you know 
are reaching out globally. They have cells and operations in 
other countries with their headquarters, ISIS, centered in 
Syria and in Iraq at what they call their caliphate. And I 
believe our role in EUCOM is to help strengthen that network.
    So we have done that. We have a counter transnational 
threat cell that has connected with both EU and NATO to help 
reinforce their network, in other words, connect with those 
countries and reinforce that, primarily to exchange 
information, exchange analysis, intelligence, and to help each 
other build our partner capacity in counterterrorism.
    Those are the steps that we have taken. NATO is taking a 
part in that as well. And I think that is the most effective 
way for us to begin to counter this terrorist threat from a 
military perspective.
    Senator Moran. Well, let me ask about the European 
Reassurance Initiative, is there a component in addition to 
combating the aggressive nature of Russia, do those actions 
that we take in that regard also have a consequence in fighting 
terrorism?
    General Scaparrotti. Well, I think they do from 
demonstrating strength. They do in the sense that, you know, 
our operational and intelligence assets, the sharing of in 
other domains, for instance, in cyber or information. Those 
relationships that you build for one, deterring Russia, play 
immediately into the other things that you do. So, you know, 
building relationships capacity works hand in glove in that 
respect.
    Senator Moran. How are we doing? This will be my final 
question and then we will turn to Senator Murphy and Senator 
Boozman and then we will move to our classified setting. What 
steps are we taking? Assure me that we are taking the necessary 
steps and describe those that you can to protect our servicemen 
and women and their families from terrorist activities in 
Europe.
    General Scaparrotti. We, and I say we--it is not EUCOM. It 
is our entire intelligence community--pay very close attention 
to the intelligence that we get, to the intelligence that our 
partners can provide for us. We have a working group that is 
established that is not just EUCOM. It is in conjunction with 
our intelligence community that, on a very routine basis, looks 
at this. If we see any indicator that there may be an increased 
threat or certainly one that has, you know, timing, location, 
activity attached to it, then we bring that working group 
together and it comes to my attention. We have had to exercise 
that in Europe, you know, more often than I would care to talk 
about. And to this extent, I think we have done a good job.
    Now, based on that, we also put out warnings or we take 
steps with raising security at our bases throughout Europe or 
in specific places. We give warnings to both our servicemembers 
and our families and sometimes we limit their travel in areas 
when we need to if at a given period of time we think there is 
a threat that would cause us to have that much concern. And 
that is the way we work it on a daily basis.
    Senator Moran. I wish you well in that regard.
    Senator Murphy.
    General Scaparrotti. Thank you.

                     BILATERAL ASSISTANCE IN EUROPE

    Senator Murphy. Thank you very much, Mr. Chairman. Thank 
you, General, for being with us. Sorry I missed the beginning 
of the testimony.
    I wanted to build upon I think the last question that 
Senator Schatz asked regarding the partnership between the work 
that you do and the work that the State Department does.
    Now, I have worried from the beginning that a European 
Reassurance Initiative anchored almost wholly in military 
support misunderstands the nature of the Russian threat and 
maybe also misunderstands their intentions inside Ukraine. I do 
not think that Russia wants to militarily own Ukraine. I think 
they want to create confusion and clouded title around a 
significant enough portion of the country to ultimately set 
forth a chain of political events inside Kiev that reinstalls 
leadership that is friendly to Moscow again so it can be a 
client state in the way that it looked under the Yanukovych 
regime.
    And so while the line may move a little to the left and a 
little to the right, ultimately they are trying to create 
enough chaos in Kiev and throughout the rest of the country 
that a decision is made to just give up and ultimately come to 
the conclusion that Ukraine is better off being friends with 
Russia and giving them whatever they need in order to get 
there.
    And so, to me, you know, that speaks to the other elements 
of a real comprehensive European Reassurance Initiative which 
would partner together, I think, the very necessary military 
components with real anti-corruption resources. We have done 
great work in Kiev to give them a little bit of money to make 
the police force more responsible to the needs of the people. 
It has been successful, but it is a tiny amount of money. Real 
energy and dependence resources. I know you are talking with 
the State Department all the time about the need to bring real 
money to the table to help these countries become energy 
independent.
    Right now, we can give them advice, but we really cannot 
put any money on the table. We can give them money to partner 
with us on military exercises, but we cannot put money on the 
table to help them build an interconnection to reverse flow 
gas. Real economic assistance, and then, as we have talked a 
lot about in Congress, real efforts to build up objective media 
to fight back against the Russia propaganda which is real and 
present throughout all of the eastern edge of the continent.
    So I wanted to maybe put a little flesh on the bone and ask 
you. I know you said you always want to lead with diplomacy 
first, but some of these things are not real--not diplomacy in 
the sense that it is just two sides talking to each other, 
right? They are real hard tools that State and USAID have to 
deploy side by side with you that change the battle space. And 
so I maybe wanted to ask you to drill down a little bit more 
specifically on some of the hard tools that you work with State 
that ultimately can be dispositive in a place like Ukraine.
    General Scaparrotti. Well, first of all, I would agree with 
you and say that we, in every country that we are active in in 
EUCOM, we are nested under the Embassy and the ambassador and 
their approach with the other agencies and our government. And 
so whether it is information, it is not just a military support 
information apparatus that we can help with. It is actually, 
first and foremost, supporting the ambassador and the State 
Department's information campaigns there, supporting their 
support for USAID or Treasury or others that are working.
    I think it is just very important that we are integrated. 
And so with our defense attache, our offices in each one of the 
embassies, that is what we work to do is make sure we 
understand their program first and then make sure we are not 
doing anything that is not fully integrated with that or seems 
to work counter in it.
    One of the areas that you have got to be careful in is 
information because we have some capacity and we have got to 
make sure we are nested with their information campaign so what 
we do as a Government and what we say has integrity.
    Senator Murphy. Back to my original premise on Russia's 
intentions in Ukraine, if you believe their intention is 
ultimately to march that separatist army into the capital, then 
it makes sense to approach this from a military first 
standpoint. If you believe that their intention is to 
essentially sit where they are long enough so that they 
politically and economically unwind the country, then you would 
certainly provide enough military support to make sure you are 
not wrong, but your approach would not be military. Your 
approach would start with economic and political support to 
keep them alive long enough so that the Russians say, ``I guess 
we are not going to win this one inside Kiev.''
    Is my assessment wrong in terms of what Russia's intentions 
are there?
    General Scaparrotti. No, I think that if you look at 
particularly their doctrine as it has changed, I think Russia 
looks at this, what we call competition blue, the level of 
conflict. I think they see that as a part of their entire range 
of conflict. And their objective is if they can achieve what 
they want, the objectives in Ukraine, without ever using 
anything more in the military, but doing it through economic 
intimidation, political provocation, and those other means like 
you described, then that is what they would much prefer to do. 
And that is essentially what we see them working on in their 
disinformation campaigns, et cetera.
    I would just point out as well that both the embassy and us 
have advisors there with--in the Ukrainian Government working 
on reform, helping them with planning and the things that they 
have to do to shift to a democratic government established in 
our values that has control of the military, that works under 
the values of rule of law, et cetera. And so that is part of 
that effort and, of course, we are a part of that group that 
does that and supports those advisors.
    Senator Murphy. I would just say, Mr. Chairman, this 
partnership which worked, I think, very well over the course of 
the last 5 years between EUCOM and Victoria Nuland and her 
staff at the Assistant Secretary level. It is hard to do 
without an Assistant Secretary for Europe, so and I know we are 
united in our desire to ultimately get leadership at State that 
will help partner with the Regional Command, but every day that 
goes by without an Assistant Secretary, that partnership is 
made harder.
    So, thank you, Mr. Chairman.
    Senator Moran. The Senator from Arkansas, Senator Boozman. 
Senator Boozman, we recognized a moment ago some students of 
yours. I understand you were a guest lecturer today for 
scholars in our audience.

                      MITIGATING RISKS WITH RUSSIA

    Senator Boozman. Now we are looking forward to them coming 
very much, so it is great to have you all here.
    Thank you, Mr. Chairman, and the Senator from Hawaii for 
holding this very, very important hearing. And, General, thank 
you for taking the time. I know you are a busy guy, but this is 
so very important, such an important topic. We really are 
living in an unprecedented dynamic time right now when it comes 
to the global security environment, and this is particularly 
true in your area of responsibility.
    Tell me a little bit. In your testimony, you discussed the 
likelihood of miscalculation and misunderstanding with Moscow. 
Can you talk a little bit about that further highlighting some 
of the steps you and your team are taking to mitigating the 
threat and how we--are we mitigating this threat among our NATO 
allies?
    General Scaparrotti. Senator, first of all, where I am 
concerned about that is in places where we have forces in close 
proximity to the Russians. So in the Black Sea, the Baltic, our 
maritime forces, in the area along the borders, in the Eastern 
Med where we know they had presence. And it is basically, you 
know, we operate in international waters. As we should, we 
expect them to follow international norms as well. So we 
continue to do that.
    At times, particularly in the Baltic or in the Black Sea, 
you have seen where they have had some maneuvers with aircraft 
or their ships that we deem to be dangerous. So, you know, we 
rely on our leaders at a lower level, to take the steps that 
they need to take at a tactical level to ensure that we are, 
one, not provocative and that we protect our forces as well, 
but we are strong. We are going to fly and sail where we should 
and where we need to in international waters and with 
international norms.
    And so that is the way I approach it. And I think our 
commanders have done a very good job. Their judgment has been 
excellent and sometimes they have been in, you know, some tight 
spots with Russian forces in close proximity.
    The last part is we make sure that if we do exercises and 
training, we are transparent. We tell the Russians if we are 
doing exercises in the east or in the waters that they are 
nearby. We let them know that so there is no misunderstanding 
of what we are doing. We would ask them to do to the same.
    Senator Boozman. And our NATO allies that perhaps sometimes 
do not have the experience in dealing with these kind of 
things, how do we mitigate that?
    General Scaparrotti. You know, we work very closely with 
them. And within NATO, in particular, our interoperability is 
improving. We are very used to working with most of those 
forces. And so even on eastern front, our work with Baltics and 
Poland, in particular, is very close. We obviously do normal 
planning with them. We discuss these issues. It is not that I 
am not concerned about it, but I think we have got a good 
relationship where we can actually ensure that our allies as 
well as our forces are paying close attention to that.

                 RELATIONSHIP BETWEEN RUSSIA AND CHINA

    Senator Boozman. Very good. General, can you talk a little 
bit, share your thoughts on the relationship between Russia and 
China, particularly with Putin's possible visit to Beijing 
later this month for the so-called One Belt One Road Summit? 
Obviously, the implications of this partnership are significant 
and many. How do you see this relationship playing out and what 
implications do you see for EUCOM and NATO?
    General Scaparrotti. Well, I think it is a bit worrisome in 
terms of the relationship if it were to become very close, but 
I think there is natural tensions there between Russia and 
China as well. And so because of that, I think we just need to 
keep a close watch on it.
    In some respects, they both are pushing against these 
international norms that I talked about, you know, pushing 
against the international security structure that is rules 
based that has really kept the peace globally since the end of 
World War II. And so, from that respect, they have a similar 
approach.
    Senator Boozman. Very good. One other thing. When you 
combine your area of responsibility with AFRICOM's, that really 
is a massive and pretty dynamic geographic area. I think 
probably 100 countries are involved between the two theaters. 
Can you talk about the impact of the resurgence of Russia these 
past few years on your service components and does the 
consolidation of service components between EUCOM and AFRICOM 
help or hinder the coordination and can you speak to the strain 
or challenges on your service components in meeting the current 
demands?
    General Scaparrotti. Well, first of all, the resurgent 
Russia has caused us, as I said earlier, to change our posture. 
It changes the operations that they do, the components do. It 
changes their readiness that they have to have on a daily 
basis. Five or 6 years ago, we were not concerned about being 
ready today.
    Senator Boozman. Right.
    General Scaparrotti. We are now. And so that has picked up 
their op temp. They are also, as you know, my components are 
also components of AFRICOM and General Waldhauser. The 
cooperation is very tight. It is very good between the staffs, 
but it is, as you can imagine, that one component commander has 
two different bosses.
    Most of the time, we work this out pretty well. There has 
been several times in the past year where a component's 
requirement to assist AFRICOM, for instance, has, I thought, 
raised the level of risk that we take in EUCOM with our 
responsibilities. And when that happens, then we have a 
discussion with the chairman or the secretary if necessary so 
that--and I think that is the important thing--so that we all 
understand the risk that is involved if there is a demand that 
is beyond the for structure that I have in EUCOM or AFRICOM has 
to service both theaters simultaneously.
    Senator Boozman. Thank you, General. We do appreciate you, 
appreciate all you represent. Thank you, Mr. Chairman.
    Senator Moran. Thank you, Senator Boozman.
    General, anything you would like to add or clarify to your 
remarks or responses to our questions before I close out the 
hearing?
    General Scaparrotti. Well, I just want to thank the 
committee for your support. I would underscore the importance 
of ERI in terms of getting our posture changed and in the right 
place and that it will take predictable continued funding in 
order to complete what we have begun. And when we go into the 
classified hearing, I can be more specific about what I see 
that being----
    Senator Moran. Thank you.
    General Scaparrotti [continued]. In the future.
    Senator Moran. General, again, thanks for being with us 
today in this setting and the one that will follow. We thank 
you for everything that you do and we would ask on behalf of me 
and my colleagues that you express our gratitude to those that 
serve under your command throughout Europe.
    For members of the subcommittee, any questions for the 
record should be turned into subcommittee staff no later than 
Tuesday, May 9th.

                          SUBCOMMITTEE RECESS

    We will now recess and reconvene in SVC-217 for a 
classified session. [Whereupon, at 3:37 p.m., Tuesday, May 2, 
the subcommittee was recessed, to reconvene at the call of the 
Chair.]
</pre></body></html>
